<html>
<title> - HEARING AND BRIEFING ON: U.S. CONTRIBUTIONS TO THE RESPONSE TO PAKISTAN'S HUMANITARIAN CRISIS: THE SITUATION AND THE STAKES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
    HEARING AND BRIEFING ON: U.S. CONTRIBUTIONS TO THE RESPONSE TO 
      PAKISTAN'S HUMANITARIAN CRISIS: THE SITUATION AND THE STAKES

=======================================================================

                          HEARING AND BRIEFING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

                           Serial No. 111-39

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
54-878                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
MIKE QUIGLEY, Illinois
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                HEARING

Hearing held on June 16, 2009....................................     1

Statement of:
    Ahmed, Samina, South Asia project director for the 
      International Crisis Group; Sherry Rehman, former Federal 
      minister for information and broadcasting, and member, 
      National Assembly, Pakistan People's Party; and Kenneth 
      Bacon, president, Refugees International...................     6
        Ahmed, Samina............................................     6
        Bacon, Kenneth...........................................    34
    Rehman, Sherry...............................................    14
Letters, statements, etc., submitted for the record by:
    Ahmed, Samina, South Asia project director for the 
      International Crisis Group, prepared statement of..........     8
    Bacon, Kenneth, president, Refugees International, prepared 
      statement of...............................................    37
    Rehman, Sherry, former Federal minister for information and 
      broadcasting, and member, National Assembly, Pakistan 
      People's Party, prepared statement of......................    18
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3

                                BRIEFING

Briefing held on June 16, 2009...................................    59

Statement of:
    Gabaudan, Michel, Regional Representative to the United 
      States and Caribbean for the United Nations High 
      Commissioner for Refugees..................................    59
Letters, statements, etc., submitted for the record by:
    Gabaudan, Michel, Regional Representative to the United 
      States and Caribbean for the United Nations High 
      Commissioner for Refugees, prepared statement of...........    64


 U.S. CONTRIBUTIONS TO THE RESPONSE TO PAKISTAN'S HUMANITARIAN CRISIS: 
                      THE SITUATION AND THE STAKES

                              ----------                              




                                HEARING

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:44 p.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Van Hollen, Welch, and 
Flake.
    Staff present: Andy Wright, staff director; Elliot 
Gillerman, clerk; Talia Dubovi and Scott Lindsay, counsels; 
Brendan Culley, Alex McKnight, and Steven Gale, fellows; Adam 
Hodge, deputy press secretary, full committee; Dan Blankenburg, 
minority director of outreach and senior advisor; Tom 
Alexander, minority senior counsel; Dr. Christopher Bright, 
minority senior professional staff member; and Glenn Sanders, 
minority Defense fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, ``U.S. 
Contributions to the Response to Pakistan's Humanitarian 
Crisis: The Situation and the Stakes,'' will come to order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, so ordered.
    We will proceed to the opening statements. Before I do, I 
want to welcome our guests who are here, Mr. Bacon, of course, 
and our guests who are coming quite a distance. And we really 
appreciate it, for your help and for your patience.
    I apologize for the fact--you know, Sherry Rehman, how 
legislators can be and how the votes come, and they take a 
while. So we apologize to both you and Samina Ahmed for the 
period of time that took us well beyond the 2 o'clock start 
period. Thank you for your patience.
    I am going to waive most of my opening statement in 
deference to the time that the witnesses have already spent and 
just say--and set the table a little bit here for the fact that 
over the past 7 weeks, the Pakistani military has, of course, 
been involved in an intensive offensive. The long and short of 
it has been, of course, that a lot of people, because of the 
tactics used and the artillery, the air strikes, have had a 
sizable effect on the civilian population and led to the 
displacement of many, many people. The estimates of how many 
vary, but I know Samina Ahmed's estimate, I think, was about 
2.8 million. About 1.9 million have been registered and 
verified, and there are a number of others who are there. 
Obviously one of the issues is some are in camps, others in 
various other types of establishments and homes where they are 
receiving hospitality from family members and friends.
    This is obviously a situation for those who are still in 
the areas where fighting rages, where curfews and land mines 
and other conflict issues leave those people frozen or not able 
to get out and avoid being caught in the middle of what is 
happening there. There are a number of NGO's who are working to 
ensure that people have food and shelter and adequate medical 
supplies, but obviously we need more help and more people on 
that.
    So this is a fundamental challenge. There's a lot of work 
to be done in the short term dealing with people's needs, but 
also we would like our witnesses to address what needs to be 
done in the long term and who should be responsible for it and 
all of the aspects going forward.
    This is obviously a dangerous opportunity for extremist 
groups to get in and help people and try to win them over to 
their perspective, but it is also a chance for the Pakistani 
Government to step in and organize a relief situation, win the 
trust of the people there and a long-term relationship, and 
gather some support back from the people in this area of 
Pakistan.
    I want to stop at that point in time, and I will allow Mr. 
Flake to make an opening statement if he wishes, and then we 
will just go to our witnesses for testimony before we get back 
to the questions and answers. I know Members will want to ask 
some questions.
    Thursday, both--all of you will want to know that we have 
Ambassador Richard Holbrooke, Under Secretary of Defense 
Michele Flournoy, who will be here discussing a number of 
related issues. So the things that you say here today may well 
help us inform some of the questioning that will go on in 
Thursday's hearing as well.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T4878.001
    
    [GRAPHIC] [TIFF OMITTED] T4878.002
    
    Mr. Tierney. Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman. In the interest of 
time, I will just submit my statement for the record.
    I want to thank the witnesses for their patience.
    Mr. Tierney. Thank you very much.
    Let me briefly introduce the witnesses we are going to have 
here today. We are going to have this hearing, and then we are 
going to proceed to a briefing--not a hearing, but a briefing--
from the United Nations High Commissioner for Refugees, a 
second panel.
    The testimony we are about to receive will be from Dr. 
Samina Ahmed, who is the South Asia project director for the 
International Crisis Group. There she oversees the ICG's 
operation in Pakistan, Afghanistan, India and Nepal. In that 
capacity she analyzes the political, social, economic and 
military factors that increase the risks of extremism, internal 
conflict and war, and she makes policy recommendations to 
overcome those threats.
    From 1999 to 2001, Dr. Ahmed served as a research fellow at 
Harvard University's Kennedy School of Government. Prior to 
that, from 1990 to 1997, she was a senior research analyst at 
the Institute of Regional Studies. Dr. Ahmed holds a Ph.D. from 
Australian National University.
    Ms. Sherry Rehman serves as a Member of Parliament in the 
National Assembly of Pakistan from the Pakistan People's Party. 
From 2008 to 2009, she served as Federal Minister for 
Information and Broadcasting. She currently serves as a member 
of the Parliamentary Committee on National Security.
    Prior to joining the National Assembly, Ms. Rehman worked 
as a journalist, most notably as editor of the Pakistan-based 
Herald News Magazine. She is a long-time activist, advancing 
the cause of better access to health and educational resources, 
particularly for women and children from the lower-income 
sections of Pakistani society.
    Ms. Rehman holds degrees from Smith College and the 
University of Sussex.
    Mr. Kenneth Bacon serves as president of Refugees 
International, a position he has held since 2001. From 1994 to 
2001, Mr. Bacon served as Assistant Secretary of Defense for 
Public Affairs, where he was the Pentagon's chief spokesman. 
Prior to that, he worked as a reporter, editor and columnist 
for the Wall Street Journal's Washington bureau. Mr. Bacon 
holds a B.A. from Amherst College, as well as an M.B.A. and an 
M.A. from Columbia University.
    So again, I want to thank all of you for sharing your 
expertise and your insight, and I want to thank Ambassador 
Patterson and her staff at the U.S. Embassy in Islamabad for 
their assistance in facilitating this hearing. We greatly 
appreciate the help there.
    It is the policy of the subcommittee to swear witnesses in 
before you testify, so I ask you please to stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that the witnesses 
answered in the affirmative.
    I assume that your phone has been taken off of mute. Samina 
and Sherry; is that correct?
    Ms. Rehman. That's right.
    Mr. Tierney. Great. Thank you.
    Dr. Ahmed, would you be kind enough to start with an 
opening statement?

STATEMENTS OF SAMINA AHMED, SOUTH ASIA PROJECT DIRECTOR FOR THE 
   INTERNATIONAL CRISIS GROUP; SHERRY REHMAN, FORMER FEDERAL 
MINISTER FOR INFORMATION AND BROADCASTING, AND MEMBER, NATIONAL 
     ASSEMBLY, PAKISTAN PEOPLE'S PARTY; AND KENNETH BACON, 
               PRESIDENT, REFUGEES INTERNATIONAL

                   STATEMENT OF SAMINA AHMED

    Dr. Ahmed. Thank you very much, Chairman Tierney, and thank 
you very much for holding this important meeting on a 
humanitarian crisis of immense proportions in Pakistan. You 
have laid out quite clearly the dimensions of the problem and 
the reasons for it.
    Let me just say this, that we in the crisis group have been 
greatly concerned not just about the peace deal that led to 
this particular crisis in the Malakand District of the 
Northwest Frontier Province, because clearly it was again a 
peace deal that allowed the Taliban to expand their control. 
And once there was popular discontent and, of course, U.S. 
pressure, the military took action, but that action, as you 
point out, was hasty, it was ill-thought-out and has led to 
this massive exodus of people.
    We are as concerned as you, sir, about the threat that is 
posed by the jihadi extremists in this area with their links to 
al Qaeda and the potential that they could exploit this crisis 
to gain access to more recruits to try to win hearts and minds. 
That is why it is so important that relief, reconstruction, and 
rehabilitation must take place in a way that meets the needs 
and empowers the communities.
    Let me say this, sir, that these are people who have fled a 
brutal Taliban rule for practical purposes. They want to see an 
end to the militancy, the presence of militants in their areas. 
They want to lead normal lives. They want to go back home.
    The United States and its assistance has been greatly 
welcomed in Pakistan, but there is much more that can be done. 
It's important for the United States to understand that this is 
not just, and as it should be, a humanitarian operation and 
meeting humanitarian needs, but it also serves U.S. 
international security efforts. If we see the jihadis, as we 
are already witnessing on the ground, taking advantage of this 
situation, then we have a problem on our hands. We will see the 
militants making a comeback. We will see them expanding their 
control once again.
    So it's equally important for us and for the Government of 
Pakistan to understand the importance of not allowing band 
organizations such as the Lashkar-e-Tayyaba's latest 
reincarnation, the Falah-i-Insaniat Foundation, from operating 
in these regions. It is equally important for the Government of 
Pakistan to understand that for any effective rehabilitation 
and reconstruction, there will be a need for civilian law 
enforcement and the civilian intelligence agencies that can 
best bring these militants to justice.
    A reformed judiciary is essential, as are long overdue 
political reforms in Malakand Division and in FATA. These IDPs 
are not only from--let me stress that--from Malakand Division. 
The 2.8 million or so are from Malakand, but there are 500,000 
IDPs from FATA as well. Here is an opportunity for the United 
States and the Pakistan Government to win hearts and minds, but 
to do so it will be absolutely essential that the assistance 
that's given is urgently provided, it is appropriate, it 
supports a civilian-led process, and it prioritizes the needs 
of noncamp IDPs, since a vast majority, more than 85 percent of 
these IDPs, are, in fact, living outside of government-run 
camps. They are living in communities that are hosting them, 
among communities that are hosting them in shelters, in 
schools.
    It is important that we think outside the box on how this 
assistance should be provided, as in our report. International 
Crisis Group issued a report on this, on June 3rd, that said, 
look, think about cash-based assistance. For income, for 
education, for health, for vocational training, it pays 
dividends.
    Documentation is possible. There is less chance of 
pilferage and wastage, and it would put a humane face by 
empowering the communities concerned.
    It's important that the United States also encourage the 
civilian government's desire to enact political and 
constitutional reform not just in Malakand Division, but also 
in FATA.
    Finally, and let me end with this, sir, it is equally 
important that the United States warns the Pakistani military 
from entering into yet another appeasement deal, such as the 
deal that it signed with the Taliban and their supporters in 
Swat, that have led to this crisis, and that will only, not 
only undermine the security of the Pakistani state and its 
citizens, but also gravely harm U.S. national security 
interests.
    Thank you, sir.
    Mr. Tierney. Thank you, Doctor. We appreciate that, and the 
report that you did on June 3rd, that was extremely helpful as 
well.
    [The prepared statement of Dr. Ahmed follows:]

    [GRAPHIC] [TIFF OMITTED] T4878.003
    
    [GRAPHIC] [TIFF OMITTED] T4878.004
    
    [GRAPHIC] [TIFF OMITTED] T4878.005
    
    [GRAPHIC] [TIFF OMITTED] T4878.006
    
    [GRAPHIC] [TIFF OMITTED] T4878.007
    
    [GRAPHIC] [TIFF OMITTED] T4878.008
    
    Mr. Tierney. Ms. Rehman, we will be happy to hear your 
testimony.

                   STATEMENT OF SHERRY REHMAN

    Ms. Rehman. Thank you, Chairman Tierney and members of the 
subcommittee, for taking notice of the magnitude and scale of 
this humanitarian crisis that Pakistan is facing today. It is 
certainly the largest transfer of refugees and human--people, 
rather, from one place to another in the history of this 
region. Pakistan has not encountered anything like this since 
the migration of refugees from undivided India in 1947.
    So clearly a response to the IDPs' challenge is of concern 
to you, is more of concern to Pakistanis as well, because this 
challenge has become, as I said earlier, a critical test of our 
response and our ability, the Pakistan Government's ability, to 
maintain public resolve and a sustained campaign against 
militancy and terrorism in the name of religion.
    Now, the principal challenge, Mr. Chairman, for the 
Pakistan Government today is twofold: to provide urgent relief 
for the frontier provinces' displaced millions, and also, 
obviously, to obtain public support for our military operation 
with high human costs. These two projects are inextricably 
linked, as noted here. Any serious lapses in coordinated 
relief, rehabilitation and reconstruction efforts, which will 
come later, will create and will endanger the fragile public 
coalition and consensus needed for powering the morale so vital 
for a sustained military operation and its successes.
    Now, the stakes for us couldn't be higher, Mr. Chairman. 
Pakistan is at a critical juncture today. Our government has 
been able to use the public recoil generated by Taliban 
excesses in the fallout of a flawed peace deal between the 
Malakand militants and the provincial government to its 
advantage. Before this specific episode, let me say that public 
opinion on militancy was divided down the line, and it was 
muddied by religious symbolism as well as partisan public 
opinion.
    Even today, as we speak, many religious parties and other 
leaders have little hesitation--these are non-mainstream, but 
they are very much in the public discourse--have little 
hesitation in condemning the campaign against terrorism as an 
American-sponsored strategy with little gain for Pakistan. And 
they do conflate the suffering of the IDPs with the failure of 
the state to reach a consensus through dialog with the 
militants.
    And, as mentioned already, the peace deals that have 
resulted in the Taliban regrouping, jihadist forces gathering 
space and momentum, have been fundamentally flawed, certainly 
in the Pakistan experience, and have almost always generated 
this kind of jihadist counterbalance to the state's writ.
    Now, for us this is as much a project of reclaiming lost 
territory, reinstalling the Pakistan flag, but also expanding 
the writ of constitutional rule, guaranteeing fundamental 
entitlements which were seriously endangered under the Taliban 
rule, empowering state institutions to function in a sovereign, 
democratic plurality.
    Now, I have to state here at this point that time is as 
much an enemy to this project as terrorism. Why I say this is 
because the displacement of nearly 3 million people over a 
period of 3 weeks has caused a huge overstretch on government 
capacity on multiple fronts. In fact, the figure I have today 
from government, which includes the earlier tribal area 
refugees referred to from Bajur, numbers to a staggering 3.9 
million. Now, this is unprecedented in the history of the 
region, and I would think, probably, the world.
    The equation is, again, very compelling and simple. If the 
trauma of internal migration, subhuman camp conditions, of 
curfews, casualties and lost family members is not mitigated 
and relieved soon, we will see human anguish beginning to drain 
public resolve for the military operation, which, I stated, is 
very essential for reclaiming the writ of Pakistan in many 
areas. So the longer this humanitarian crisis goes on, a space 
for the larger existential battle against terrorism shrinks, 
and public confidence in government also, obviously, goes down.
    These camps remain hotbeds and sanctuaries for recruiting a 
larger mindset toward terrorism, and we have to guard against 
our--the states, right now, are overstretched and provide as 
much assistance, both from civilian support and international 
assistance, in terms of immediate relief and food security 
operations.
    A concern that is emerging now is that as the theater of 
operations expands toward the tribal areas, which it has 
already, the pressure of another wave of refugees may trigger a 
fresh crisis. And a main issue of concern is that once 
terrorists are flushed out, they will be able to or may be able 
to escape through routes via the Iran border, especially by 
Waziristan. And this prospect of a return and regroup of 
Malakand, once they find sanctuary, perhaps in Afghanistan, 
will reverse all gains made at such high human costs.
    So this is something to think about, and we feel that the 
United States can and should intervene and perhaps in the 
Kabul--perhaps with Kabul in the Trilateral Commission to start 
maximizing opportunities for border interdiction at this point, 
because there is very little symmetry in terms of the effort 
Pakistan is putting in on the border and the other side, 
especially from, obviously, Kabul.
    Now, the other thing that is of concern is the sense that 
the international community has been slow to respond to the 
crisis. Only a small amount of $430 million pledged has 
actually been translated into goods and relief. And I cannot 
help but reiterate the magnitude of the crisis and the ability 
of government to cope at such notice and with overstretched 
abilities.
    The U.N. also has warned that its appeal of $543 million in 
emergency aid is still unmet. And if by July, I would say in a 
week or so, the deficit in international commitments continues 
at 80 percent, which it is right now, food supplies to the 
camps will be severely compromised. And, of course, this will 
be--represent a fresh humanitarian disaster. Oxfam has 
testified to this, and so has the World Food Programme.
    The Government of Pakistan has allocated 50 billion rupees 
in the budget for RRR efforts, but I feel these will be 
diverted to food provisions and urgent supplies in terms of 
relief, again taking away from the cash grants so badly needed 
for refugees and the space needed for reconstruction and 
rehabilitation.
    The international community can certainly provide the 
resources for the Pakistan State to emerge as a major welfare 
agent--and obviously we are in a moment of opportunity here--to 
put jihadist groups that have been using welfare activities as 
a cover to funnel--to carry on their aid activities, to carry 
on their proselytizing, as well as other activities. And we 
must, obviously, use this opportunity in partnership with the 
United States and other members of the international community.
    But I must state here that there is a concern again on the 
ground that while all governments in Pakistan have shown a 
below-average ability and capacity to execute budget 
allocations, there is no comparison to the aid reflux of U.S. 
money when it is re-routed back through intermediaries and 
earmarked contractors. Basically the sense here is that we are 
getting something like 40 to 50 cents to each dollar of aid 
money that comes through earmarked contractors, and that is 
something that we need to look at.
    I won't overlap with what already has been said. Clearly a 
large-scale reform in FATA in the PATA areas, which is Malakand 
Division, is also the order of the day. Reconstruction of 
infrastructure is a critical concern. I am told that gas, water 
and pipelines are being re-laid very urgently. But, again, we 
must be very careful to ensure the security of the returning 
refugees, returnees. When they go back to their homes, there is 
an urgency, obviously, to return, because life in camps is 
debilitating.
    We must also look toward guaranteeing their security once 
they return by insisting and working on and harnessing the 
capacity at least to return back to Malakand Division, because 
they had initially fled. And these civilian forces, as well as 
Frontier Corps, levees, should form the bulwark of any future 
security arrangements that are put in place for government 
oversight and civilian security to the area.
    One, again, area of concern that is being stated is that 
there is little sense again of how much--what the cost Pakistan 
has incurred in terms of this ongoing battle. The budget 
recently announced $35 billion incurred by Pakistan. And, as 
you know, Pakistan's society and urban centers most especially 
have been transferred--transformed, rather, into battle zones, 
particularly after the operation was launched. Peshawar itself, 
the capital of the Frontier Province, has witnessed 18 bomb 
blasts since this operation began.
    So we are really concerned about enhancements of security 
capacity and state abilities now to carry on with what will 
clearly be a long-term sustained venture. I think there has to 
be attention paid to giving serious, not just inputs, but aid 
inflows not just to the refugees, because that is a clear and 
present crisis, but also to the next step before we send 
refugees back to an unprotected environment. This is essential 
for us to look at.
    And, last, I would like to say again, to avoid overlap, 
there is a great deal of concern that we are paying, as I said, 
a high human cost in this battle. And if there is a troop surge 
in Afghanistan by the U.S. forces, which we know is imminent, 
then how are we going to protect against pressure of the 
Taliban coming in from Afghanistan again?
    Once again, I would stress that the border must be 
fortified if we are also to guard against sanctuaries on both 
sides of the border, and this will address mutual concerns for 
both countries using each other to launch attacks, to allow 
attacks to be launched. And this is certainly something we 
don't want to countenance in Pakistan. And we are hoping that 
the United States will be able to use its good offices and 
leverage in the Trilateral Commission to ensure that there is 
not a return of a regrouped Taliban back into our areas.
    We are looking, obviously, in the short run and medium 
term, to enhance the Pakistan Government's capacity to deliver 
on the basic obligations of governance, justice and social 
service delivery--those are diminished as we speak because of 
overstress--but on security fundamentals as well.
    Finally, I would like to say that we must enable our 
compact to renew a strong state-citizen relationship that 
allows the government and civilian capacity more influence over 
the regions that have earlier been exploited by non-state 
actors because of the existing constitutional and political 
gaps, which we feel must be filled.
    I would be happy to answer questions as we proceed. I think 
a lot more needs to be said, but, once again, thank you for 
providing this opportunity for us to give our inputs.
    Mr. Tierney. Thank you very much for your comments. Of 
course, your written remarks and articles that you have written 
have also been shared with the committee, and we will have some 
questions for you after Mr. Bacon's testimony.
    [The prepared statement of Ms. Rehman follows:]

    [GRAPHIC] [TIFF OMITTED] T4878.009
    
    [GRAPHIC] [TIFF OMITTED] T4878.010
    
    [GRAPHIC] [TIFF OMITTED] T4878.011
    
    [GRAPHIC] [TIFF OMITTED] T4878.012
    
    [GRAPHIC] [TIFF OMITTED] T4878.013
    
    [GRAPHIC] [TIFF OMITTED] T4878.014
    
    [GRAPHIC] [TIFF OMITTED] T4878.015
    
    [GRAPHIC] [TIFF OMITTED] T4878.016
    
    [GRAPHIC] [TIFF OMITTED] T4878.017
    
    [GRAPHIC] [TIFF OMITTED] T4878.018
    
    [GRAPHIC] [TIFF OMITTED] T4878.019
    
    [GRAPHIC] [TIFF OMITTED] T4878.020
    
    [GRAPHIC] [TIFF OMITTED] T4878.021
    
    [GRAPHIC] [TIFF OMITTED] T4878.022
    
    [GRAPHIC] [TIFF OMITTED] T4878.023
    
    [GRAPHIC] [TIFF OMITTED] T4878.024
    
    Mr. Tierney. Mr. Bacon, you are recognized.

                   STATEMENT OF KENNETH BACON

    Mr. Bacon. Mr. Chairman, thank you for holding this timely 
and important hearing.
    The Obama administration has made clear that Pakistan is 
one of America's most important strategic partners, and now 
that partner is afflicted by one of the world's most rapidly 
growing humanitarian emergencies. Refugees International, an 
independent advocacy agency, has been surveying displacement in 
Pakistan for more than a decade.
    Pakistan generously hosted millions of Afghan refugees 
during the Soviet occupation. This crisis is different because 
it involves the displacement of Pakistanis, and because it has 
arisen so quickly. Sadly, the current humanitarian challenges 
are likely to get worse before they get better. The Government 
of Pakistan is expanding its current campaign against the 
Taliban into South Waziristan, which could trigger additional 
displacement, and the monsoon rains are about to begin, 
complicating the provision of supplies and raising new health 
and sanitation challenges, such as cholera.
    A Refugees International team recently returned from 
Pakistan, where it surveyed internal displacement. It found 
that, one, needs are enormous, as most have fled without 
anything and sought shelter in camps or with relatives.
    Two, the U.N. and aid agencies are struggling to respond to 
the most pressing needs, but funding has been scarce. 
Furthermore, the funding that has been pledged has not been 
distributed expeditiously to meet the needs that have arisen, 
nor in the most effective way.
    Three, relief efforts have so far been focused on camps, 
whereas the vast majority of the displaced, over 80 percent, 
are staying with host families, who are quickly running out of 
resources. One aid organization has reported that pockets of 
starvation and trauma amongst the population remains a 
protection priority. Women and girls are particularly 
vulnerable.
    Four, changes in the way the United Nations and the 
Pakistani military are operating could reduce displacement and 
improve humanitarian response.
    Five, all parties, the United States, the U.N. and the 
Government of Pakistan, must prepare for further displacement.
    And, six, it is premature to expect internal refugees to go 
home. An independent team should assess the sustainability of 
returns.
    To respond to this humanitarian emergency, the U.N. issued 
at the end of May a $543 million humanitarian appeal. This 
latest appeal includes emergency relief projects by all U.N. 
agencies and a number of international NGO's, and calls on 
donors to respond generously and immediately to one of the 
largest displacement crises in the world.
    Despite the urgency of the situation and the strategic 
importance of the region, the response has been insufficient, 
and the appeal remains severely underfunded with only 26 
percent of it pledged to date. The appeal for food is less than 
50 percent funded. The protection cluster of the appeal is only 
1 percent funded.
    To date, the United States has been by far the most 
generous donor with $164 million during this fiscal year. A 
further $200 million request was submitted by the Obama 
administration to Congress for emergency funding to aid 
organizations, as well as to meet traditional levels of the 
U.S. funding to the U.N. refugee agency and the International 
Federation of Red Cross and Red Crescent Societies.
    It is encouraging that the conference report for the 
pending emergency supplemental has the House and Senate 
agreeing to an emergency appropriation of $225 million. Equally 
important, the funding should be directed toward the 
International Disaster Assistance Account to assure that it is 
distributed efficiently to meet the needs of internally 
displaced people.
    I hope that Congress will quickly approve this request. The 
humanitarian community in Pakistan has praised the U.S. Office 
of Foreign Disaster Assistance for deploying an emergency team 
in the field and for responding quickly to funding requests 
from NGO's. It is crucial that Congress support these efforts 
and approve the supplemental request so that it can be quickly 
distributed.
    Despite having a donor coordination group, other donors 
have been noticeably absent until now or have shown limited 
generosity. The European Commission's Humanitarian Office just 
announced a 22 billion euro contribution, while the U.K. so far 
has provided 22 million pounds. But much more needs to be done 
if the international community wants to respond effectively to 
humanitarian needs.
    Today Her Majesty Queen Noor Al Hussein, a member of the 
Refugees International Board of Directors, and I are sending 
letters to the Office of the Islamic Conference and to foreign 
ministers, Ambassadors of Arabic countries urging their 
generous support of the humanitarian appeals. I have attached a 
copy of that letter for the record.
    The lack of sufficient assistance to the displaced is 
already having serious consequences. According to the UNHCR, 
most of the new arrivals in the camps were previously staying 
with host families. They can no longer afford to do so and are, 
therefore, resorting to putting up with heat--the temperature 
rises to about 110 degrees Fahrenheit during the day--and poor 
living conditions in the camp.
    The government started to distribute about 55,000 Pakistani 
rupees, roughly the equivalent of $300, to each IDP family, but 
now it is backtracking, saying it might only distribute the sum 
of money to half of those registered, as it is unclear where we 
will be able to get funds. This is both a humanitarian and a 
security challenge.
    In a development that Refugees International has witnessed 
elsewhere, and which my fellow witnesses have commented on, the 
vacuum in assistance is being filled by politically motivated 
actors to gain popular support and allegiance. According to 
international and national aid agencies, political parties 
active in Pakistan have set up shop in the camps and amongst 
host communities and provide various services from distributing 
fans to providing mobile phone cards to the displaced.
    The majority of international aid organizations and U.N. 
agencies work through local partners because of their expertise 
and their ability to access remote areas. Many Pakistani 
organizations also obtain their funding from foundations and 
donations in parallel to the U.N. cluster system. Local 
organizations are a critical part of the overall relief effort 
because they have in-depth knowledge of the environment and 
sustained programs over an extended period of time. From a 
financial perspective, they are also much more cost-efficient 
than international NGO's as their overheads are much lower.
    Once more, using local organizations helps to build local 
capacity and strengthens Pakistan's humanitarian 
infrastructure. I hope that the United States will work with 
the U.N. to encourage greater participation and greater funding 
by local NGO's.
    In conclusion, while the displacement crisis in Pakistan is 
nearly a year old, its magnitude, the scope of the needs and 
its political implications of this crisis have not been fully 
grasped in foreign capitals. The international response has 
been far too slow. The ongoing humanitarian operation is only 
the start of what will have to be a prolonged and massive aid 
effort. Displaced families need immediate relief and in time 
will require renewed confidence and support to return home in 
safety and dignity.
    The Obama administration has repeatedly stated the 
geostrategic importance of the region, and it is seizing this 
opportunity to show concern and leadership. It is not merely a 
question of funding, though the humanitarian assistance and 
reconstruction efforts will need robust financial commitments. 
The United States has clear national objectives in Pakistan, 
and these can be advanced by showing concern for the fate of 
civilians and for helping Pakistanis to meet their needs and to 
build a more peaceful, prosperous future.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Bacon.
    [The prepared statement of Mr. Bacon follows:]

    [GRAPHIC] [TIFF OMITTED] T4878.025
    
    [GRAPHIC] [TIFF OMITTED] T4878.026
    
    [GRAPHIC] [TIFF OMITTED] T4878.027
    
    [GRAPHIC] [TIFF OMITTED] T4878.028
    
    [GRAPHIC] [TIFF OMITTED] T4878.029
    
    [GRAPHIC] [TIFF OMITTED] T4878.030
    
    [GRAPHIC] [TIFF OMITTED] T4878.031
    
    [GRAPHIC] [TIFF OMITTED] T4878.032
    
    Mr. Tierney. We are going to go into a period of 
questioning here. We generally do 5 minutes for each Member and 
then circle through again. There is almost more material here 
than we can cover in one hearing, but we will do the best we 
can.
    In the International Crisis Group report that Dr. Ahmed 
prepared, there are comments there about the relief organs, the 
state relief organs, being overly centrally localized, and an 
indication that the military continues to dominate key 
institutions, and that undermines the civilian capacity.
    The question I would have is does the civilian government 
in Pakistan have the actual capacity to take charge of this 
relief prospect both in the short term and in the long term, 
planning for a return, and is there a willingness to try to 
assign to the military a different role than that of running 
the relief program and instead take that over on the civilian 
side? Either of our witnesses in Pakistan might want to address 
that in any order.
    Dr. Ahmed. One of the problems lies in the fact that the 
civilian institutions have, as a result of almost a decade of 
military rule, certainly lost some of the capacity that they 
originally had. This is not to say that the bureaucracy, the 
civil bureaucracy, and the civilian government lacks the 
capacity to plan, lacks the line ministries of the civilian 
government, lacked the capacity to implement, and certainly--
and it's very important right now for us to understand--you 
need a civilian face even more so because of the history of 
this conflict and how it has unraveled.
    To have the military run the show in terms of relief or 
plan ahead, as it seems to indicate right now, on taking charge 
of reconstruction is to talk about not just a centralized 
approach, but to an institution that has very little knowledge 
of and a very poor record of working with civilians and with 
civilian institutions, this undermines that entire process of 
ensuring that communities are empowered and that they are part 
of the process.
    As my fellow witness said, local NGO's exist. They have the 
capacity. Local governments exist. They have the capacity. 
Elected governments exist, and let's hope that we can build 
that capacity as opposed to falling back on strengthening the 
military's civilian roles, which serves neither the purposes of 
that institution nor the interests of the IDPs.
    Mr. Tierney. Thank you.
    Ms. Rehman, let me ask you this: Do you agree with Dr. 
Ahmed's assessment? If you do, what is the Pakistani 
Government, Parliament and the Prime Minister, doing in terms 
of asserting leadership on the relief effort?
    Ms. Rehman. Well, I think what is going on here is over the 
last few weeks we have seen, again, realities literally 
transform, and that really has been an effort of mostly local 
government in the Frontier Province, which is done through the 
emergency relief unit [ERU], and certainly there is room for 
expanding the civilian component of all aid and relief and 
rehabilitation activities. Perhaps in reconstruction 
activities, yes, the military might be a better partner for the 
heavy-lifting part.
    [Note.--Video link signal lost to witnesses in Pakistan.]
    Mr. Tierney. This is not good. Well, we will work on 
correcting that.
    While that's interesting enough, this morning we had a 
hearing in the education field about technology in the 
classroom, and the mics here didn't work, but they worked fine 
in the classroom.
    Mr. Bacon, let me ask you, while that's being corrected, do 
you see the United States making any concerted effort to 
actually focus its aid to local NGO's and more local 
enterprises that have, perhaps, better, more knowledgeable 
relationships, or are they still moving through the military 
and Pakistan and other centralized aspects where we might run 
into the danger of losing some 40 or 50 cents, as Ms. Rehman 
said earlier?
    Mr. Bacon. Well, it's my understanding from talking to 
Ambassador Holbrooke and his staff that they are very aware of 
the need to build civilian capacity. And they see this, one, as 
a humanitarian challenge, but, two, as a great opportunity to 
help build civilian infrastructure in Pakistan.
    So my hope is that they would be paying attention to this. 
Certainly USAID is clear on the need to deal with local NGO's. 
And there are, as Dr. Ahmed said, many capable local NGO's in 
Pakistan. Many of them did very good work during the 
earthquake, after the earthquake in 2005. And we need to build 
on that capacity and bring these people into the system in a 
much more effective way.
    Mr. Tierney. There's apparently a problem in Islamabad, so 
they are trying to call and get that back on line. We will do 
that as soon as we can.
    Until we can, sir, you are in the hot seat. I am sure you 
don't mind on that.
    Mr. Bacon. OK.
    Mr. Tierney. Mr. Flake, why don't I let you ask some 
questions of Mr. Bacon, and then we will allow the other 
witnesses to come back.
    Mr. Flake. Thank you, Mr. Chairman.
    With this increase in humanitarian aid going, as an 
increase--I mean, a lot of local contractors are recognized, 
but there's going to be a greater U.S. presence, I assume. How 
can we assure the safety of those who are acting on our behalf 
without making it seem like a military effort, but with so many 
military there to protect them? How do we strike a proper 
balance, in your view?
    Mr. Bacon. Well, that's precisely one of the reasons we are 
using local NGO's, because they are Pakistanis who live in the 
community, they know the people there, and they know the habits 
and the risks that they face.
    International contractors are harder to protect than local 
people. So the advantage of the local NGO's is that they are 
well-known quantities, they are seen as providing aid and help 
to their neighbors, and they can do this usually with much less 
cost than bringing in people from American contracting firms.
    So security generally is easier for locals than it is for 
internationals; not always across the board, but generally much 
easier.
    Mr. Flake. With that comes a risk that you don't know what 
you are getting sometimes. I mean, you can vet those that you 
contract with, but how do we ensure that we are not using or 
contracting with some who may have sympathies with the Taliban 
or working--I mean, that's an ongoing problem.
    Mr. Bacon. Well, that's a very legitimate question. That's 
a very legitimate question.
    I think, as my fellow witnesses said, there's a great deal 
of antipathy to the Taliban, and what people are looking for is 
effective aid and help right now.
    So, I think, again, we rely on local intelligence and local 
capacity to inform us on who is good and who is bad. It's not--
it's not foolproof, but it's a way to start.
    Clearly, they know better than we know, and we just have to 
build trust in them and give them a little bit of operating 
room and some money and clear guidance, clear goals, a ways to 
evaluate their progress, metrics, and work with them as we do 
with our own contractors.
    Mr. Flake. We obviously put restrictions and directives and 
mandates on the aid that we provide.
    Mr. Bacon. Uh-huh.
    Mr. Flake. Is there difficulty in aligning that with the 
goals of other organizations that have broader, I guess, 
participation, be it with the UNHCR or with the Red Crescent or 
whomever else is operating there?
    For example, with legislation that we just passed, is it 
going to be a problem aligning the goals that we have laid out 
with other aid organizations?
    Mr. Bacon. I don't think it should be. I think that we and 
UNHCR and the International Federation of Red Cross and Red 
Crescent Societies share the same goals. We want effective 
programs. We want displacement and we want poverty to end. We 
want to find ways to work together.
    So I don't think this should be an issue at all.
    Mr. Flake. It was mentioned that most of those who are 
displaced find refuge with family members and with others that 
aren't necessarily in camps, and it's been advocated that we 
put direction their way as well. But where is the most acute 
need, in your view? Is it in these camps, or is it somewhere 
else?
    Mr. Bacon. Well, since 80 percent of the people aren't in 
camps, we have to find an effective way to get aid to people 
who are living with a local population.
    This is both good and bad. Camps aren't a great place to 
be, but it is easy to deliver aid, medical care, food, etc., to 
people in camps when they are centralized. It's much harder to 
do this in a dispersed population.
    But through a good registration process, which the UNHCR 
has set up, it's possible to do that, but it's more time-
consuming, it's more expensive, and it's not as easy as it is 
in camps. On the other hand, people are generally much more 
comfortable in private houses than they are in camps.
    But there are reports of 25 people living in a room in some 
of these houses, so these are not cushy conditions for the 
displaced persons. It's very, very difficult for them to be 
absorbed by generous host families.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Van Hollen [presiding]. Thank you, Mr. Flake.
    As you can see, the chairman had to go take a phone call. 
He will be back shortly.
    I welcome back our witnesses who are with us from Pakistan, 
Dr. Ahmed and Ms. Rehman. Are you with us? We just want to make 
sure it's all hooked up again.
    Dr. Ahmed. Yes, sir, we are back.
    Mr. Van Hollen. Very good. I apologize for actually joining 
the hearing a little late after some of the testimony, but I 
think that all of us see in recent events some positive 
developments, but also, obviously, some dangerous developments.
    When I speak of positive, obviously I am not talking about 
the internally displaced persons, but I am talking about the 
fact that the Government of Pakistan has taken the threat of 
the Pakistani Taliban seriously and deployed their forces in a 
meaningful way to try and address the threat. The unfortunate 
consequence, of course, is you do have internally displaced 
persons, you have lots of refugees within Pakistan.
    And the challenge for all of us is to make sure that these 
individuals, these families, get the support that they need 
from the Government of Pakistan and from local NGO's as 
appropriate. And, you know, we need to figure out the best way 
of deploying those resources. Among the displaced persons, of 
course, are many children. In fact, according to Save the 
Children's rapid assessment of the IDPs, 54 percent are under 
the age of 18, and more than 16 percent are below the age of 5.
    Is there anything in particular being done to address that 
population? Obviously that population is, you know, mixed in 
with their family members, but I am interested in whether or 
not special efforts are being made to help the most vulnerable 
among them.
    Mr. Bacon. Well, first of all, women and children are 
always the most vulnerable in displaced populations, and there 
is--there has been some progress. I know that the Pakistani 
Ministry of Health has, in the midst of this crisis, been able 
to vaccinate 500,000 children against polio, so there is 
special attention being paid to the health needs of children.
    They are also working on a program to improve maternal and 
child health care in the midst of this as well.
    So the government and its partners are paying a lot of 
attention to meeting the health and nutritional needs of 
children.
    Mr. Van Hollen. And this is a question for all of you. 
What's your best assessment right now as to how the Government 
of Pakistan, with any help they are receiving from the 
international community, how they are doing in terms of 
providing support and resources that are needed.
    And juxtaposed to that, how would you assess the extent to 
which some of the components of the Taliban are able to take 
advantage of this situation to try and provide social services 
as well? Because as we all know, this is in some ways a race 
for the hearts and minds and a fight for the hearts and minds 
of people of these areas. And when you are hungry and 
displaced, you will turn to services wherever you can get them.
    So how would you evaluate, as of today, the extent to which 
the government, through all its different mechanisms, is 
providing those services? And to what extent did we have 
information about whether or not the Taliban forces, the allied 
forces are providing, are coming in to try and fill the vacuum 
and whether or not they are successful at filling that vacuum?
    Mr. Bacon. Well, it's a very comprehensive question, and 
probably my Pakistani colleagues could better answer.
    But first I would state that I hope that the Government of 
Pakistan can find a less disruptive and intrusive way to launch 
this military campaign, one that concentrates more on reducing 
or limiting displacement.
    Two, I think the government is doing a good job, but it is 
not getting the support it deserves from the rest of the world. 
And it needs far more resources than it has.
    Three, I do believe that it is an opportunity to build 
local capacity, and they should concentrate more on doing that.
    And, four, in terms of the Taliban, it's my assessment--and 
I have not been to Pakistan recently--that the government has a 
great opportunity to show its concern for the people and, in 
fact, to seizing that opportunity. And the Taliban is quite--
has created a lot of antipathy on the part of the people. So 
this, again, is another opportunity for the government.
    Mr. Van Hollen. Thank you.
    Dr. Ahmed and Ms. Rehman, is the Government of Pakistan----
    Ms. Rehman. Yes, the Government of Pakistan, as stated 
earlier, is extremely overstretched, No. 1, because of the 
magnitude of the crisis. It is very difficult to register and 
even track down families that are outside camps. The UNHCR 
certainly has set up a process. So has the data base, the 
national data base in Pakistan. It is called NADRA.
    The process is difficult. Pakhtun traditions also make it a 
challenge for officials and a State administration, people to 
go inside homes. Many may be more comfortable than they are in 
the camps, but they are certainly not living in conditions that 
are anywhere near optimal or what they were used to in their 
homes.
    They are mostly situated in homesteads and patios outside 
on the ground in people's homes, 25, 50-plus are coming in to 
be accommodated by each family. So this is a major issue, and I 
think that there will about an overstretch even on the question 
of hospitality. So we will--we may have to worry about a large 
influx into school buildings and camps that we see overused.
    Now, as far as health interventions are concerned, I think, 
yes, the health ministry has been working very hard, both the 
provincial and the central. But here we do need a great deal of 
assistance. It's not just a question of vaccinations. Women 
are--especially Pakhtun women remain inside their tents. They 
are mostly not able to go out, except some girl children. And 
the temperatures are very high. They are not--they don't have 
access to lady doctors and lady health visitors, which are 
sorely needed in much higher densities, certainly at the camps. 
And the camps, you must understand, are a site also for daily 
anguish on 51 channels of Pakistan's television. It really does 
produce and refract an image of a state that is allowing its 
citizens to suffer, whereas that is not the case.
    But the point is that whatever the government is doing at 
this point is not enough. And while civil society has stepped 
up to the plate recently--and, again, the good news is that 
every week you do see a change in the availability of services 
in each of the camps. The pressure on the camps in terms of 
sanitation and health care remains very high. Yes, there is at 
least a week of food security guaranteed, but there is--there 
is a much more--there is much higher need of organized health 
interventions, as I said, as well as a community participation, 
which is now, of course, becoming more and more available.
    But we do need to coordinate these efforts better, avoid 
duplication between international agencies and certainly not--
to avoid pileup and centralization in provincial hubs such as 
Peshawar, where you see a lot of wasting of resources, even in 
the international agency offices. They are unable to cope with 
the numbers and the magnitude of the refugees coming in. So, 
you know, to repeat the case that there is still a great deal 
of assistance still required, and perhaps some management 
emphasis on the ground also to be addressed in terms of 
coordination.
    Mr. Van Hollen. Thank you very much.
    Mr. Flake.
    Mr. Flake. Since I wasn't able to ask a couple of 
questions, let me just ask, with regard to--I will ask kind of 
the same question that I asked Mr. Bacon.
    How do you balance the desire to use local groups and local 
NGO's with the fear that some that you might be contracting 
with might have sympathies with the Taliban? Are our partners 
able to discern those links, or is that something we should be 
concerned about?
    Dr. Ahmed. I would like to answer that, because I think one 
of the things we need to make very clear, when we look at the 
potential of the jihadis exploiting this situation, is that the 
IDPs have fled from Taliban-controlled areas where they 
witnessed the most brutal attacks. There were murders, public 
executions, women deprived of work, girl children not allowed 
to go to school, public property seized. This population sees 
the Taliban as criminals, and so they are.
    What is important now for us is not whether local NGO's 
have sympathies to the Taliban. Other than the jihadi groups 
and parties that obviously have sympathies with the Taliban, 
you don't see that either with the mainstream parties or with 
mainstream local NGO's.
    If anything, as Ms. Rehman stressed, there is at this point 
in time in Pakistan a real opportunity, because not just in the 
Northwest Frontier Province but countrywide there is now an 
antipathy to the Taliban and a great desire to see the state 
assert its writ, to see law enforcement, to see rule of law, to 
see justice, and to see these criminals brought to justice.
    What is important for us now is to make sure that this 
opportunity that exists is exploited to the fullest, because if 
we don't, the jihadis will.
    Mr. Flake. On that point, if I might, are there some 
jihadi-related relief efforts going on in some of these areas 
at the moment? And I am assuming that is what we are trying to 
get away from. How does the local population react when we try 
to ban those jihadi-related relief efforts? Or is that not an 
issue?
    Dr. Ahmed. One of the jihadi groups that is operating there 
is a banned group. This group was allegedly responsible for the 
Mumbai attacks. This jihadi group was banned once by the 
Musharraf government, re-emerged under a changed name, and it 
has resurfaced again under a changed name.
    It is the responsibility of the Pakistan Government, and I 
think it is important for the United States to point that out 
to the Pakistan Government, to make sure that a group that is 
declared a terror organization by the U.N. Security Council, 
that is banned as a terror organization by Pakistan under its 
own laws is not allowed to operate.
    But then, when we are talking about the NGO's and the local 
community organizations, we are not talking about an organized 
jihadi group such as the Lashkar-e-Taiba. It is important, 
though, that Islamist political parties are also there and have 
set up their own activities. And, you know, that is again an 
exercise of attempting to win hearts and minds.
    Have they succeeded thus far? I don't think they have. The 
stories that are coming out--Ms. Rehman talked about the media 
showing the face of the IDPs to Pakistanis every day, the human 
tragedy that Pakistan is facing. But the stories that the IDPs 
have come out with are also being heard countrywide about what 
the Taliban are about and what the jihadis are about and how 
much of a threat they pose and how un-Islamic they are.
    The government's rhetoric also helps. It has changed 
immensely under the civilian government, when the Taliban are 
now being called criminals and murderers who should be brought 
to justice as opposed to what we heard in the past, that they 
are jihadis.
    Mr. Flake. Ms. Rehman.
    Ms. Rehman. Thank you. If I may just address this question 
and reinforce what Dr. Ahmed has just said, there are obviously 
some groups working on the ground, and most of them are also 
religious parties. Like all other political parties, people 
have set up camps. But it is nothing like the jihadist 
intervention in terms of aide relief that we witnessed in the 
earthquake of 2005. I would like to clarify that. That is not 
happening.
    And there are fewer and fewer takers for very overt Taliban 
interventions or jihadist interventions in Islamic groups. 
Certainly, there are welfare boxes and charities and tents 
operating everywhere, and they sometimes take cover in 
religious parties' tents and offices, as well. But it is 
nothing like the effort you saw earlier.
    This is mainly because it is swamped out by very organized 
state and international aid agency efforts. Also, because 
interventions are happening through the entry points of 
specific camps. And there are 22 right now, mostly in the 
Frontier Province, which are regulated by the ERU, which is the 
Emergency Response Unit. And each camp has a different 
complexion to it, which is, you know, dictated largely by how 
the local community is partnering with the government and 
international agencies.
    But I must say that it is heartening to see the narrative 
of anti-Talibanism take root in public discourse. However, I 
would like to warn against complacency in accepting that, 
because this is something that can tip very quickly if 
successes on the battlefield are not translated into 
sustainable relief and rehabilitation and resettlement efforts 
for the refugees.
    They are an anguished picture of human suffering every day. 
And every time we see groups and television crews arriving at 
the camps, we do see a blow to public consensus against 
Talibanization, when women are seen as destitute and children 
are seen running around wild-eyed in the sun without schooling.
    So one does sense that there is a huge cost that the 
Pakistani people are paying. Yes, there may have been fewer 
intrusive ways to conduct military operations, and we must not 
get complacent at this public opinion that is building up every 
time.
    As I said, there is public anguish over the IDPs' suffering 
and the humanitarian crisis. Questions, and hard questions, are 
asked in the public domain about the efficacy and long-term 
gains that we can make and hold in terms of a military 
operation, as well as the political gains we make from it.
    So I think this is something we have to capture and 
maintain without public momentum of looking at how we resettle 
eventually and provide relief in their areas is very important 
for the IDPs.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you.
    Let me ask each of our three witnesses a direct question 
that probably doesn't require a long answer. But in the 
International Crisis Group report, there was a recommendation 
that so-called jihadi groups--that is the word Dr. Ahmed used--
be prohibited or banned under the anti-terrorism law from 
participating in relief efforts.
    Do all three witnesses believe that is a wise thing to do? 
And if it is, what do you see as the impact of shutting off 
that type of aid to people who may be now receiving it?
    We will start with you, Mr. Bacon.
    Mr. Bacon. I do think it is a wise thing to do. I accept 
the recommendation.
    Mr. Tierney. Ms. Rehman.
    Ms. Rehman. I absolutely endorse that.
    Mr. Tierney. OK. And I know how you feel, Dr. Ahmed. You 
wrote it.
    Dr. Ahmed. I endorse that.
    Mr. Tierney. OK. Now, can they do it? Do they have the 
power and will to do that?
    Mr. Bacon.
    Mr. Bacon. I think my Pakistani colleagues could speak more 
about the will and the power than I could. But, yes, they 
should have the power to do it.
    And I think it is instrumental in building local rule of 
law, as well. It fits in with that.
    Mr. Tierney. Ms. Rehman.
    Ms. Rehman. Yes, I think that this is a problem that we 
will have to expand outside the Frontier Province. We will have 
to take it to other provinces as well, mainly the Punjab.
    And we will have to address provincial capacity and will to 
do it. It is not something that we have been able to do 
overnight. It will involve a complex interchange of 
interventions in terms of legal as well as policing efforts, 
which, frankly, I haven't seen our ability on the ground to do.
    But this would be a move that we can consider as a next 
step, and it is an important next step to take.
    Mr. Tierney. And, Dr. Ahmed, I suspect that you feel it can 
be done; that is why you recommended that it should be done.
    Dr. Ahmed. Well, we absolutely believe it can be done.
    The police in Pakistan, despite the fact that its 
capabilities do need to be built on, we did a report on police 
reform, and we were heartened when we talked to senior police 
officials to find out that they really believed the only way to 
go was to arrest these criminals and to prosecute them.
    And that is, in fact, the only cure for militancy in 
Pakistan: rule of law; you have to take them to the courts. You 
have to actually, first of all, respect your own law because, 
after all, these groups are banned under Pakistani law, and 
they are responsible for acts of egregious violence against 
Pakistani citizens.
    Mr. Tierney. I am going to read some excerpts, and then I 
have a question at the end--excerpts from the ICG report.
    The first one is a statement that says, ``The scale of the 
current IDP''--internally displaced person--``crisis is a 
function of failed military policies that have enabled 
militancy to spread for several years.''
    The second statement is a quote by the head of the 
Peshawar-based NGO, and it is, ``The military is trying to 
improve its image by controlling the relief process. There is, 
indeed, little reason to believe that the military will be 
willing to work any more closely with civilian institutions and 
elected representatives than it has in its counterterrorism 
efforts.''
    And last, ``The military's longstanding links to jihadi 
networks and its appeasement deals with militants, the latest 
with the Swat-based Taliban, have also understandably provoked 
doubts about its intentions and the current operation. If there 
is a peace deal, it is conclusive evidence that nothing has 
changed.''
    There are Members of Congress, I among them, who are 
concerned about giving U.S. military aid to Pakistan without 
conditioning that aid on the military's ability and will to not 
cut another peace deal but, in fact, to continue to assert 
themselves against the extremist forces on that basis so that 
the public in Pakistan can have justifiable confidence in them; 
condition it upon the military's allowing the civilian 
government to extend the writ of law to FATA and the Northwest 
Frontier Province and bring the justice system out there and 
the rule of law on that basis. And Members of Congress thought 
it was important enough to not vote for other items in the 
supplemental bill because those conditions had not been put in.
    Now that is juxtaposed, of course, with the $200 million 
that is in the bill for relief. I hear from each of our 
witnesses that they think both of those concepts are important.
    Is there a reason to think that passing the money for 
relief might not be money well spent if, in fact, the military 
is going to cut another deal with the extremist elements and 
not allow the civilian government to take over the relief 
effort and, in fact, not do many of things that we talked about 
here today?
    Ms. Rehman. If I may address just one of those concerns, on 
the ground, frankly, if you look at relief efforts, the relief 
efforts are being run by the Emergency Response Unit and the 
Frontier civilian government. There is a special support group 
that is being run by a member of the military. We don't see 
their operations as, at least in the field, very evident. We 
see everywhere the downstream workings of the local community, 
which is, again, going right through the ERU, as well as the 
Frontier government.
    But I do feel that we have to address this issue of peace 
deals with not just banned outfits but all warlords that 
control territory and cutting peace deals as a result of the 
state's inability to maintain its executive writ in the area. 
These always have shown opportunities for Taliban and jihadist 
and non-state actors to amass, to find that they can regroup. 
And they have always resulted in critical reversals for the 
state, so I think these are experiments that we need to avoid.
    And I must say at this juncture that the provincial 
government of the Frontier was very much involved and very 
forthcoming in recommending cutting a deal with the Malakand 
militants. And I think this is something that we need to learn 
from this experience, has shown the whole country that such 
deals don't work. And I think we need to translate that 
experience into other areas, as well.
    Mr. Tierney. Thank you.
    Dr. Ahmed, how important do you think it is to condition 
military assistance on a more committed military effort to go 
after extremists and to allow the civilian government to extend 
its writ and become the primary mover in relief efforts and in 
the rule-of-law efforts?
    Dr. Ahmed. I think conditionalities on military assistance 
that are very clear and confined to military assistance, that 
do not extend to economic/development/relief assistance would 
be a signal sent to the Pakistani military.
    You know, one of the things that we need to be clear about, 
it is in the military's own interest. What we have seen happen 
to this country in the past 8 years as a result of peace deals, 
as a lack of resolve--because of the lack of resolve of the 
military and because of its failure to then allow the civilian 
law enforcement agencies and intelligence agencies to act.
    The groundswell of opinion that we see now against the 
Taliban is an indicator that the Pakistani public doesn't 
support this approach. The military has suffered casualties.
    If clear conditionalities and a clear signal are sent by 
the U.S. Government, I think it will benefit the Pakistani 
military, benefit the Pakistani people, and benefit the United 
States.
    Mr. Tierney. Thank you.
    I would just make note that one of the quotes in the report 
was from an official indicating that in Gulabad, in the Union 
Council in Lower Dir, there was a military check post and a 
half a kilometer away a Taliban check post. And the question 
obviously was, why doesn't the military just take a little trip 
down the road and eliminate that situation? And things like 
that continue to exist and continue on.
    Let me ask one last question, at least, if Mr. Flake has 
some more--the nature of assistance that is going right now. We 
understand about the food and other commodities that have to be 
brought to people immediately. But there was great emphasis in 
the report--and Ms. Rehman also mentioned it, and I think Mr. 
Bacon did, as well--about changing the nature of relief in some 
respects to a cash basis for certain reasons, whether job 
training or to start the economy or to allow people the self-
respect that is needed to continue on.
    Doctor, would you speak briefly to that? And if the other 
witnesses have a comment on it, that would be appreciated as 
well. And particularly about the benefits of doing it and 
whether or not we can have any accountability with respect to 
it.
    Dr. Ahmed. Absolutely. I think it is important that in the 
Pakistani context, as opposed to perhaps other such similar 
situations, it is possible to do it in such a way that will not 
only empower the communities that we would want to address, but 
also ensure that there is actually oversight and monitoring.
    The registration process might be slow, but there is a 
national identity card in Pakistan. And, in fact, it brings 
these citizens into the mainstream because the identity card is 
needed for all sorts of purposes. There are biometric features 
that can be installed, not a problem at all.
    And what can the card be used for? There are multiple 
purposes it can be used for. It can be used as a debit card, 
which is income support. Let's not forget, 85 percent of these 
IDPs aren't living in the camps. They are living with host 
communities who are, themselves, very poor. So just that 
ability to support the community through simple access to find 
the money that they need I think is one.
    The children, we spoke about the children, half of the IDPs 
being children, and half of these IDPs being out of school. 
Parents don't have the money right now, but cash for education 
is something that actually the United States has used 
elsewhere. So cash vouchers for education, cash vouchers for 
health, cash vouchers for vocational education.
    Documentation is possible. There is a banking system in 
these areas. It is not as though you cannot monitor this far 
more carefully, in fact, than transferring goods to either the 
camps or through civilian-military intermediaries.
    Mr. Tierney. Thank you very much.
    Ms. Rehman. Yes, I think cash transfers would be very 
useful at this point, because it would empower the actual 
communities, as Samina said, those especially living with host 
communities, as well as those in the camps. There is a great 
deal of anxiety about income opportunities being lost through 
displacement of wealth. And there is danger of mass destitution 
always at such crises points.
    I would like to add that, yes, there is an income support 
program and documentation process under way right now. But 
that, too, needs support because we have an influx of refugees 
all of the way down into the south, into the city of Karachi, 
which has become the largest Pashtun city in the world. And 
this is something we need to consider all of the way 
downstream.
    All reforms, all programs that we are looking at now must 
now move outside the Frontier Province, as well, and bring into 
their ambit refugees disbursing all over the country, 
particularly the very volatile city of Karachi, which is 
beginning to see ethnic community unrest, which is unfortunate.
    But I would like to just take the opportunity to speak to 
your question about conditioning aid. Yes, while the U.S. 
experience has been obviously difficult with all military 
funding and where your coalition support funds did go and there 
have been issues of transparency in the past, I think right now 
the atmosphere is politically very sensitive in Pakistan, with 
the IDP crisis. And while no one can ignore the merits of 
transparency and, obviously, better governance, I am sure some 
structures can be built. But conditioning aid at any level 
right now will be politically difficult for the government to 
sustain in terms of engaging strategically and suggesting that 
our strategic ally is conditioning aid at a very difficult time 
for Pakistan.
    Mr. Tierney. And, Ms. Rehman, does that go if we separate 
out the civilian aid money and not put conditions on that and 
condition only the military money, do you still feel the same 
way?
    Ms. Rehman. I think that this will become a major issue in 
Pakistan. It will not be seen as separated, which is 
unfortunate. And perhaps I would recommend some type of joint 
monitoring system. Because this is a very sensitive political 
strategic moment in our history, and that may just become--
there may be public recoil against any kind of conditioning. 
And, obviously, it will be said that, here is an old 
transactional relationship reasserting itself. It may be an 
irrational public outcome, but this is what may be expected. I 
would recommend some kind of monitoring mechanism that you 
build in with the military.
    Mr. Tierney. Thank you for that.
    My last question, then, would just be, is there anything 
that either of our witnesses would care to add, since you have 
been kind enough to wait as long as you did to have a chance to 
testify and you are coming such a long distance? Any thoughts 
that you want to leave us with before we close out the hearing 
that we might not have asked?
    Ms. Rehman.
    Ms. Rehman. Yes. I think we cannot stop reinforcing the 
issue of the jihadists returning to these areas. I think that, 
yes, we will be looking at police reform and capacity building, 
and we can certainly go with flushing out militants in the long 
run. But, again, the word ``flushing out'' implies that we 
haven't been able to either decommission their arms or 
reintegrate them into society. We have no programs for any such 
thing. And right now I think our experience of the militants 
has been that they are not able to decommission nor be 
reintegrated in any significant numbers.
    So it is important to look at how communities will re-form. 
I think we should be very clear that, once the operations are 
over and citizens resettle, even the social transformations in 
these areas will need change. They will need institutional 
accommodation. We may not be able to go back to, say, pre-
Taliban Malakand. We will have to integrate non-elite voices 
and communities that have been marginalized, including women. 
And the collective responsibility in the jirga system will have 
to become more inclusive in terms of social justice 
dispensation and perhaps even the PATA regulations, which is 
Provincially Administered Tribal Areas, under which Malakand is 
operated, will have to be reformed, if not incrementally then 
slowly.
    Also, I think we have serious concerns about border 
interdiction. If Pakistan is going through all this and paying 
such a high human cost, then there is a lot of fear about the 
Taliban rejoining some of their colleagues, and some old 
redoubts may be reinvigorated.
    We feel that the escape routes through South Waziristan and 
North Waziristan and all across the border agencies of Pakistan 
and Afghanistan must really be strongly interdicted if we are 
not to see a return of the Taliban and, again, reversals made 
both on the battlefield and in the communities that we have 
displaced today.
    Mr. Tierney. Thank you very much for your testimony today 
and for those comments.
    Dr. Ahmed. May I add----
    Mr. Tierney. Dr. Ahmed.
    Dr. Ahmed. May I just add that I think it is really 
important for us to remember that what we are seeing right now 
is the result of a peace deal. The Taliban expanded their 
control not because of the allies across the border but because 
they were allowed to through a peace deal signed with the local 
authorities devised by the military.
    There is some indication that there will be operations 
conducted in the Waziristans, but there are also indications 
that some of the Taliban groups might be considered more 
acceptable than others. I think this is a hugely dangerous 
trend.
    It is essential that the United States makes it clear that 
no peace deal with any violent militant group that actually 
believes in the jihad, not only within Pakistan but across 
Pakistan's borders into Afghanistan, in India, and even beyond 
India in the West, is acceptable.
    I think it is equally important to remember the other 
thing, the framework of this relief reconstruction effort. If 
the United States and U.S. officials stress the negative, which 
is, well, the civilians have capacity, then I think they will 
lose the opportunity of helping to build that capacity.
    If, again, there is doubt in some official quarters about 
civilian capacity of enacting political, administrative, and 
legal reforms, that will bring FATA and Malakand into the 
mainstream, these are not helpful. It would be far more helpful 
if the Obama administration and the U.S. Congress supports the 
process of political reform that the Pakistan Government, a 
young, nascent democracy, would want to see in its territory 
because it sees it in the interest of the state and of the 
global community.
    Mr. Tierney. Thank you very much.
    Mr. Bacon, do you have any final words of wisdom?
    Mr. Bacon. Thank you.
    I just would like to go back to one point I made, which is 
that we need to guard against premature returns. All refugees 
want to go home, and everybody wants them to go home. But we 
have to make sure that, when they go home, they go home to 
secure and sustainable communities. If they go home 
prematurely, this problem will not end.
    So what we have recommended is an independent verification 
process to decide when it is safe for refugees to go home and 
to follow that so we don't get premature forcebacks.
    I know that this is a big issue for the Pakistanis, and it 
is a big issue for the United States, as well. But I just think 
in the past we have seen high costs from premature returns, and 
I hope we can avoid that here.
    Mr. Tierney. Thank you.
    Thank you, Mr. Bacon, for your testimony today but also for 
the work that you do and your organization does. We are all 
indebted to you for that.
    Mr. Bacon. Thank you, sir.
    Mr. Tierney. Dr. Ahmed, thank you for the work that you do 
in the International Crisis Group in various places throughout 
the world. It is always helpful to have insightful facts and 
information, and you provide that on a regular basis. And I 
know members of parliaments and congresses around the world 
rely on that work and appreciate it a great deal.
    The Honorable Sherry Rehman, thank you for taking your time 
today. I know things are very busy over there, and you were 
very nice to take your time and give us your valued opinion and 
insight as to what is going on.
    I know that I speak for all of my colleagues, I would 
suspect, when we say how sorry we are that you have such 
difficult conditions in Pakistan at the moment. And we wish you 
only the best in dealing with that situation, relieving the 
suffering of so many people.
    As you know, Congress has acted and is in the process of 
acting again to try and add some relief to that. We know that 
everybody working together can make it as comfortable as 
possible for people in an already bad situation. And we only 
wish you the very best in making that happen as quickly as 
possible.
    So, again, thank you all very, very much for your 
testimony. Thanks again for all of our witnesses. Thanks to the 
folks at the Embassy our in Islamabad for helping us with the 
hookup on that.
    And, with that, this hearing is adjourned, and we will now 
proceed to our second panel, which is a related briefing.
    [Whereupon, at 4:12 p.m., the hearing was adjourned and the 
briefing commenced.]


                                BRIEFING

                              ----------                              

    Mr. Tierney. Good afternoon.
    Mr. Gabaudan. Good afternoon.
    Mr. Tierney. Thank you for joining us. I am sorry that 
there was so much delay, with the votes earlier on. It pushed 
you back a little bit. Now I want to make sure we get started 
on this, because we have votes coming up in a little while and 
I don't want to inconvenience you and make you have to wait 
until after those votes.
    So let me just briefly say that we are receiving a briefing 
from Mr. Michel Gabaudan from the Office of the United Nations 
High Commissioner for Refugees.
    I would note that the United Nations High Commissioner for 
Refugees staff member Mr. Aleksandar Vorkapic was killed in 
last week's hotel bombing in Peshawar. On behalf of our 
colleagues, certainly Mr. Flake and I and the staff here, we 
want to express our condolences to his family and to his 
coworkers at the UNHCR. It serves as a reminder that you have 
many staff over there who are in dangerous conditions 
repeatedly and have the bravery to put themselves in that 
position and sacrifice of themselves and their families.
    Mr. Gabaudan serves as a regional representative to the 
United States and the Caribbean for the United Nations High 
Commissioner for Refugees. His career with UNHCR spans more 
than 25 years and includes service in Africa, Asia, Latin 
America, America, and Australia. So the frequent flier miles 
are building up.
    He has worked in Pakistan as a field officer there and, 
prior to his posting in Washington, served as a regional 
representative for UNHCR in Beijing. He attended the University 
of Bordeaux in France.
    I want to thank you again, sir, for making yourself 
available, and would appreciate it if you have a statement that 
you would like to make, and then we will have a little colloquy 
afterwards if that meets your approval.

 STATEMENT OF MICHEL GABAUDAN, REGIONAL REPRESENTATIVE TO THE 
    UNITED STATES AND CARIBBEAN FOR THE UNITED NATIONS HIGH 
                   COMMISSIONER FOR REFUGEES

    Mr. Gabaudan. Thank you very much, Mr. Chairman. And I am 
really grateful for the opportunity given by your committee for 
us to brief you on our activities in Pakistan on behalf of the 
internally displaced people.
    I would, at the outset, like to say that our work would not 
be possible without the generous contribution we have had from 
the U.S. Government to our activities, but also to the very 
close interaction we have with Ambassador Patterson and her 
staff in Islamabad and with our PRN colleagues here in 
Washington. It is an excellent working relationship that I 
think contributes to whatever success we may achieve.
    We have been operating in Pakistan for almost 30 years, 
starting with the Afghan refugees. And through these 30 years, 
the success of the operation has been due, one, to the 
tremendous welcome that the Pakistani population and Government 
had given to the Afghans, but also to the very sustained effort 
by the international community to support that project.
    And throughout these years, our main implementing partner 
in Pakistan was the Pakistani commissioner for Afghan refugees. 
So to address myself to one of the questions you asked 
previously, there is expertise in managing these sort of 
situations in Pakistan, expertise that has been tested over 
time.
    We first got involved with IDPs in August last year, with 
the movements of persons taking place out of the Bajaur agency 
in the federally Administered Tribal Areas and, after that, 
from the Mohmand agency. And, by April, we had registered some 
550,000 people who had already left.
    Since the end of April and early May, we have witnessed in 
speed and size the largest population movement since the exodus 
from Rwanda some 15 years--not for the same conditions, I am 
not trying to compare the situations, but certainly in terms of 
speed and size.
    As has been said, we have now about 240,000 people living 
in camps, so it is a little bit over 10 percent, out of the 2 
million that have been confirmed by the verification of the 
registration. We do have some 100,000 who live in camp-like 
situations in schools or in public facilities that will have to 
be given back to their normal use in July when the schools 
resume. And we have an increasing number who are moving outside 
of the NWFP area and moving into Punjab. And now it is 
estimated that there may be up to 300,000 people moving in this 
direction.
    Our response is part of a broader U.N. response in which we 
have assigned three responsibilities, which is protection, 
shelter, and camp management. I would like to address very 
quickly what we do under each of these chapters and then 
address myself to the challenges we face in the coming months.
    Protection is essentially registration. We are supporting 
the government to register IDPs for those populations who are 
living with local people in villages and towns. It is the 
minister of social welfare who is doing the registration in the 
camps. He is the commissioner for Afghan refugees.
    And here I would like to stress something very important, 
that for a population living in the conflict area, the 
government has maintained registration in the hands of civil 
authorities. We think this is essential. It is not especially 
what happens in other areas of the world, and we value very 
much this response by the Pakistani Government.
    And we are all supporting NADRA in the verification 
exercise to weed out double or triple registration, as may be 
happening. Registrations allows us to give ID cards, to 
identify vulnerable groups, to start working on family 
reunification, particularly for children who have lost their 
parents in the exodus, and to make a determination of who will 
need what sort of assistance. So it is a very important 
protection tool.
    We are trying to look now at other issues of protection 
that always happen when people flee these sort of conflicts, 
which is gender-based violence, which is unfortunately 
something that affects populations who suffer these sort of 
conflicts in whatever continent we are. We have experienced 
this in Europe, in Latin America, in Africa. And Pakistan would 
not be exempt from these sort of issues. But we are just at the 
beginning of looking into these particular delicate issues.
    In terms of shelter, we have to remember that this is a 
mountain population, which is coming back in low-land valleys. 
They are not used to the heat, which actually is unbearable 
right now. And one of our main approaches to shelter is to try 
to, what we call, ``summerize'' the living conditions. We have 
to make sure that you have shade over the tents. We have to 
make sure that we double up electricity so they can have fans, 
that we have lighting in the camps for security, and that we 
have watercoolers. So, quite an adaptation of the conditions 
for these people to suffer as little as possible from a rather 
dramatic change of environment from the one they are used to.
    We also have to develop a privacy system, which is 
culturally required, the purdah mechanism, of putting walls 
between the tents. But this is not just a respect for culture, 
it also has an important protection impact.
    The camp management function is basically identifying new 
sites. Right now we have 21 camps. This is not enough. The 
camps are quite congested, and we increasingly have people 
moving out of the families with whom they found security in the 
beginning because these families are poor and they cannot help 
them anymore.
    So we feel that, over the next weeks and months, the number 
of people who want to reside in camps will just increase. And 
we have to identify sites, prepare these sites, and also 
develop a community approach to running the camps whereby the 
communities themselves are consulted in the decisions that 
affect the way assistance is given in the camps.
    The challenge we will face in the immediate future is to 
adjust very quickly to changing weather. The monsoon is coming. 
With the monsoon, we will have flooding. We need to make sure 
these places are properly drained. And with the floods will 
come the scourge of malaria, again, something that this 
mountain population are not used to and that can have a 
devastating effect on this population.
    And then, a few months after that, we will have the 
beginning of winter, which will require the winterization of 
the camps.
    So we have quite a few challenges in terms of adjusting the 
conditions in the camps to make life as bearable as possible 
for these people who are in camps and who are very crowded.
    The second challenge is that we need to develop a system to 
distribute items to the people who stay with families. As we 
say, it is a majority of them. We have developed about 80 hubs 
so that food and nonfood items can be distributed. We are in 
the process of responding to those people who have been 
identified through the registration. We are far from reaching 
them all at present. But this is certainly one of the 
challenges we have, to make sure that the burden they bear on 
the local population is as reduced as possible.
    We want to register those who have left for Sindh and 
Punjab. The government is not very keen for them to receive 
assistance, I suppose because they don't want to generate the 
full factor, but at least we want to be able to register them 
so they have this ID and they further have a protection 
mechanism. So that is another spread-out of our operations 
further into Pakistan.
    The next major challenge will be the preparation for 
returns. And I cannot subscribe more to what Ken Bacon said 
before: We all want people to go back. The sooner they go back, 
the better, because life in camps is not something which is 
wished for and could generate some symptoms of dependency. And 
life in local families bears inordinate pressure on the local 
population.
    But returns have to follow certain series of principles. 
They must be voluntary. They cannot be subject to political 
expediency to just demonstrate that things are better. We will 
have to look at issues of unexploded ordnance in areas of 
return, questions of destruction of infrastructure, whether it 
is roads or bridges that are required to make sure that people 
can move back, and then see what support the Pakistani 
Government needs to reestablish services for their health and 
education and certainly the rule of law, as has been very 
clearly identified by our colleagues.
    All that is not necessarily under UNHCR, but we must make 
sure that all of this is in place before we can really make 
sure people go.
    One of our roles in return will be to gather information to 
make sure that displaced people have sufficient information on 
what is happening down there, eventually help them to go and 
see, etc., but not press and urge returns, as I said, as a 
matter of political expediency. We must too often suffer these 
sort of pressures, and this would be dramatic because it would 
be reverting to the cycle that we have just witnessed.
    In this context, we have two great difficulties to 
overcome. One is funding. A lot has been said about that. The 
response of the international community remains rather tepid. 
We had initially, within the United Nations, made this appeal 
for a little bit over $500 million. Our share of that was $105 
million. We got funded for about 40 percent.
    Right now we have reviewed our needs in light of the recent 
figures of 2 million. We need, just for UNHCR, about $140 
million. I suppose that the other agencies will send increments 
of the same order. And that means we are funded to about 30 
percent of our needs. And this is not counting on possible 
additional outflows from Waziristan, where we understand that 
an operation is just beginning, as was foreseen. So funding is 
a dramatic constraint.
    There is in this country, I think, a proper appreciation of 
what is risk in Pakistan. There certainly is on the part of the 
Pakistanis. I am not sure on the part of the rest of the 
international community there is such a sense.
    And in the very words of my High Commissioner this morning, 
response to this crisis is not just a question of moral 
obligation because of the dire suffering of the people, it is a 
question of, as he put it, enlightened self-interest, because 
our failure to respond carries out security implications for 
Pakistan and the region which are quite severe.
    And the second big challenge we have, you alluded to it at 
the beginning, Mr. Chairman, security concerns are important. 
And we are in the process of trying to balance how can we 
develop a field presence that is efficient in responding to the 
needs without exposing our colleagues to unnecessary risk. We 
have to take some risk, but we have to make sure these risks 
are not exaggerated. And we are right now in a review on how we 
should operate to reduce risk to our staff and to make sure 
that we can keep on working there. We are certainly not talking 
about pulling out.
    I will stop here because I think much has been said before. 
And thank you very much, again, for your interest.
    [The prepared statement of Mr. Gabaudan follows:]

    [GRAPHIC] [TIFF OMITTED] T4878.033
    
    [GRAPHIC] [TIFF OMITTED] T4878.034
    
    [GRAPHIC] [TIFF OMITTED] T4878.035
    
    [GRAPHIC] [TIFF OMITTED] T4878.036
    
    [GRAPHIC] [TIFF OMITTED] T4878.037
    
    [GRAPHIC] [TIFF OMITTED] T4878.038
    
    [GRAPHIC] [TIFF OMITTED] T4878.039
    
    Mr. Tierney. Well, thank you very much.
    Mr. Flake, I would just invite you to jump in at any time, 
too--we will just have a conversation here--with questions, as 
you would like.
    Do you see any evidence that the Pakistani Government has 
actually started the planning that will have to be involved for 
the return eventually of these folks? It would seem that they 
can't be returning this summer or this winter, it is probably 
likely that we are looking at next spring at the earliest, so 
it gives them a fair amount of time.
    But do you see anybody actually doing the planning for all 
that will be necessary to bring people back in a safe 
environment and one that gives them, as you mentioned, the 
health care and the education and the jobs structure?
    Mr. Gabaudan. At present, I think there is more talk about 
returns than actual action. The government has committed 
itself, and this is absolutely welcome, to re-establish public 
services as a basic condition for return.
    I think we have to realize that, in the past years, 
civilian administrators of the government have suffered from 
the insurgency tremendously--murders of doctors, professors, 
mayors, etc. So there is a shortage of human resources that I 
am not quite sure how they will address, but it will be a 
constraint into the re-establishment of these services.
    But if experience tells us anything, the people who moved 
from Bajaur in August last year are still in the camps, and 
there has been almost no return. So I think it is going to take 
more time than we think, despite the talks.
    Mr. Flake. Back on the security issue, with your colleague 
being killed there just recently, do you employ private 
security? And are they augmented by security from local police 
forces? Or how does that work?
    Mr. Gabaudan. Well, by definition, we want the relief 
effort to be de-linked from the military operations. So we 
cannot operate relief as part of a more militarized effort, and 
we want these two things to remain quite distinct. So we have 
usually private security guards in our office, etc. These are 
very good against thieves; they don't tend to be so efficient 
against more aggressive sorts of persons.
    We have no evidence, I must say, that the bombing in the 
hotel was directed at U.N. staff in particular. It is just a 
place where international people do gather, etc., and it is 
visible.
    Mr. Flake. I have been to Peshawar. That is a particularly 
hard place to secure, I am sure.
    Mr. Gabaudan. One way we will respond--sorry, if I may--is 
probably by having a lighter foot presence of international 
staff and starting to work much more through Pakistani staff. 
And thank God in Pakistan you do find competent and well-
trained people. So we have to review the way we operate 
generally and the sort of proportion between internationals and 
locals.
    Mr. Tierney. I was going to ask you about that, because we 
have had a lot of recommendations about the talent that is in 
Pakistan, the quality of the people there who are able, capable 
of doing this work.
    So your organization is, in fact, reaching out to many more 
of the domestic Pakistani population to try and help with your 
efforts, as well?
    Mr. Gabaudan. Yes. I think this is where we are going to 
go. Our director for the Asian bureau, head of security, and 
head of emergency services are currently in Pakistan to make a 
review of our operation after the incident last week. And that 
will be ready next week, but I think it is going to be in this 
direction.
    Mr. Flake. Just one other question. Talking about premature 
return, guarding against that, unexploded ordnance or whatever 
else are the issues, how do you enforce that? Or can you? I 
know it is a difficult balancing act there.
    Mr. Gabaudan. Well, if people want to go, of course this is 
their choice, and there is nothing you can do. And the risk, of 
course, is if assistance is not good enough and their situation 
becomes terrible in the places where they have found refuge 
right now and they go back because going back is the best 
alternative, then we have a recipe for catastrophe. If they go 
because they really feel they have their orchards to tend and 
they want to rebuild their homes, etc., and we are convinced 
that their return is voluntary, we have to help them.
    What we must avoid is pressure for them to go back as a 
sort of symbol that things are back to normal, when all of the 
premises have not been ensured--security through the removal of 
ordnances, establishment of services, recreation of 
infrastructure, etc.
    Mr. Tierney. How is the urgency going to become spread to 
the international community? How are they going to be impressed 
with the urgency of this so that they perhaps step up and fill 
in some of the gap between what the United States is providing 
and what the U.N. thinks is necessary?
    Mr. Gabaudan. Well, I'm not quite sure. Right now, as I 
said, the United States has been our main supporter. Europe is 
not showing tremendous desire to respond. We are trying our 
best to convince them. As I say, it is not just a question of 
moral obligation, but that we all have broader interest in 
helping Pakistan. And sometimes appealing to the self-interest 
of a nation can help.
    The High Commissioner will personally go to the Gulf States 
I think in a week to try to also ask for their assistance. They 
should also understand that they have immediate interest in 
this situation not getting out of hand.
    Mr. Tierney. But they haven't been overly responsive so 
far, have they?
    Mr. Gabaudan. No, they haven't.
    Mr. Tierney. That is interesting.
    You mentioned in your remarks about the reunification of 
families. Can you tell us a little bit about the magnitude of 
that issue? How many families are not just displaced but also 
separated? Are you finding a high proportion of people in that 
circumstance or not?
    Mr. Gabaudan. I don't have these figures, Mr. Chairman. And 
I can look into them and forward them to the committee when I 
have them. We are still trying to sort out information.
    What we found out recently, certainly with some of the 
NGO's that we work with, like the International Rescue 
Committee, there are lots of tents, for example, where you have 
children only. Whether they just guard the tents while their 
parents are doing something or whether they have been just left 
there without any indication of where the family has gone we 
are not sure.
    And this is something that we have called the attention of 
the government to, and we are working with the Commissioner of 
Afghan Refugees to try to sort out these issues.
    Mr. Tierney. As more and more people either leave their 
host family because the burden has just become too high or exit 
the school buildings because they are going to be put back to 
educational use, and the hospitals or other buildings, what is 
your estimate right now of how many additional camp sites will 
need to be constructed over and above the 21 that exist now?
    Mr. Gabaudan. I think we are looking at 10 additional 
sites, but we have to make sure that these sites can be drained 
properly, that we can bring electricity, etc.
    So, again, I do not have the exact details, but I think we 
are planning for a fairly substantial inflow from people who 
have already left the conflict zones and are around Peshawar 
and who will have to go into camps at some point.
    Mr. Tierney. I want to thank you, Mr. Gabaudan. The work 
you do is just incredible, and all your staff and the folks 
that work with you. It is greatly appreciated around the world, 
but particularly here, as well as the sacrifice and the risk 
that we mentioned earlier, unfortunately evidenced by what 
happened last week. It just brings it into too stark a relief.
    Thank you for taking the time out of your day to come here 
and brief us on that. This is information that we need to have 
to share with our colleagues and make sure that we have the 
proper response.
    So, again, thank you very, very much.
    Mr. Gabaudan. Thank you very much.
    Mr. Tierney. The briefing is adjourned.
    [Whereupon, at 4:33 p.m., the briefing was adjourned.]

                                 <all>

</pre></body></html>
